           U.S. Department of
                                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                          Date:   September 29, 2011
           Single Audit on the Michigan Department of
           Transportation
           Report No. QC-2011-178
                                                                                       Reply To    JA-20
  From:    Earl C. Hedges                                                               Attn Of:
           Program Director for Single Audit

    To:    See Distribution

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for the Michigan Department of Transportation (Michigan DOT). This
           report presents the results of our Quality Control Review (QCR) of a single audit
           performed by the Auditor General of the State of Michigan (Auditor General) on
           Michigan DOT for the period October 1, 2008 through September 30, 2010. During
           this period, Michigan DOT expended approximately $2.7 billion from DOT grant
           programs, as shown on the attached Schedule of Expenditures of Federal Awards.
           The major programs tested by the Auditor General were: (1) the Highway Planning
           and Construction Program, (2) the Federal Transit Cluster, (3) the Federal Transit
           Services Cluster, (4) the Formula Grants for Other Than Urbanized Areas, and
           (5) the Airport Improvement Program.

           The Office of Management and Budget's (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of Federal
           funds, and report internal control and compliance deficiencies that affect Federal
           grant programs.

           The Auditor General rendered an unqualified (clean) opinion on Michigan DOT's
           financial statements and questioned costs of $61,300 concerning DOT's grant
           programs. The Auditor General rendered an unqualified opinion on DOT's five
           major programs, but made recommendations to correct internal control and
           compliance deficiencies that directly affect the Federal Highway Administration and
           Federal Transit Administration. 1




           1
             We advised FHWA and FTA about these deficiencies in a separate memorandum. The single audit report issued by
           the Auditor General is available upon request sent to singleauditrequest@oig.dot.gov.
                                                                                 2

SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with generally accepted government auditing standards, the Single Audit Act
of 1984, as amended (the Act), and OMB Circular A-133, and (2) the extent to which
we can rely on the auditor's work. The scope of our QCR was limited to the Highway
Planning and Construction Program, Formula Grants for Other Than Urbanized
Areas, and the Airport Improvement Program.

RESULTS

We determined that Auditor General's work was Acceptable, and therefore met the
requirements of generally accepted government auditing standards, the Act, and
OMB Circular A-133. We found nothing to indicate that the Auditor General's
opinion on Michigan DOT's financial statements or reports on Michigan DOT's
internal controls and compliance were inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729 or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

Distribution:
   Division Administrator, FHWA, Michigan Division Office
   Regional Administrator, FTA, Region V
   Regional Administrator, FAA, Great Lakes Region

cc: Manager, FAA, Minneapolis Airports District Office
    Audit Liaison, FHWA, HAIM-13
    Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Audit Liaison, FAA, Great Lakes Region
    Administrator, Michigan DOT, Financial Operations Division
